                                                        NATIONAL SCIENCE FOUNDA nON
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGA nONS

                                                CLOSEOUT MEMORANDUM

  Case Number: AIOOS0039                                                                     Page 1 of 1



                  We reviewed an allegation that materials provided to students as part of an on line course
          on grant writing l taught by the SUbject were plagiarized from NSF sources? The text used by the
          subject was referenced in a footnote within the document.                             .

                  The Subject has not submitted proposals to NSF, and has no active funding from NSF.
          The course is not described as being developed or presented with NSF support. We forwarded
          the allegation to the university.

                    Accordingly, this case is closed.




NSF OIG Form 2 (ll/02)
